                                  INSPECTION




 FOLLOW-UP TO OFFICE OF
 POLICY ANALYSIS REPORT,
 “REVIEW OF SELECTIVE ASPECTS OF
 THE FEDERAL HELIUM PROGRAM,”
 JUNE 2010




Report No.: WR-IN-BLM-0003-2010    October 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR




Memorandum                                                                     OCT 1 8 2010
To:            Robert Abbey
               Director, Bureau of Land Management

From:          Mary L. Kendall
               Acting Inspector General

Subject:       Follow-up to Office of Policy Analysis Report, "Review of Selective Aspects of
               the Federal Helium Program," June 2010 (Report No. WR-IN-BLM-0003-2010)

        At the request of the Bureau of Land Management (BLM), the Department of the
Interior's Office of Policy Analysis (PPA) recently completed an independent review ofBLM' s
Helium Program. The BLM asked that this review focus primarily on the recommendations
contained in the August 2008 Office ofInspector General (OIG) report, "Immediate Action
Needed to Stop the Inappropriate Use of Cooperative Agreements in BLM' s Helium Program"
(Report No. WR-IV-BLM-0003-2008/0I-CO-07-0206-I).

        In light of the current Congressional consideration being given to the continuation ofthe
program as it operates now or to modify BLM' s role, BLM should make the necessary changes
to improve the transparency and accountability of the Helium Program. Continuing on the
current course will only perpetuate the opportunities for fraud, waste, and mismanagement. BLM
has the opportunity now to address Helium Program issues identified by the PPA and OIG.

       Please provide us with your written response to this report, number WR-IN-BLM-0003-
2010, within 30 days. The BLM response should provide information on actions taken or
planned to address our five recommendations, target dates, and titles ofthe officials responsible
for implementation. Please address your response to:

        Ms. Kimberly Elmore
        Assistant Inspector General for Audits, Inspections, and Evaluations
        U.S. Department ofthe Interior
        Office of Inspector General
        1849 C Street, NW, MS 4428
        Washington, DC 20240

        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5745 .




                               Office of Inspector General I Washington. DC
Table of Contents

Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective, Scope, and Methodology ................................................................... 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Equipment Costs Not Funded with Federal Funds ............................................. 4
   Standard Cost Allocation Methodologies Not Used ........................................... 4
   Complex Billing Process Lacks Transparency.................................................... 5
   Use of Maintenance Funds Unclear .................................................................... 5
   Questionable Investment Fee .............................................................................. 6
   Questionable Use of Cooperative Agreements ................................................... 7

Conclusion and Recommendations ......................................................................... 9
   Recommendations ............................................................................................... 9
Results in Brief
In June 2010, the Department of the Interior’s Assistant Secretary for Policy,
Management, and Budget, Office of Policy Analysis (PPA) issued its report,
“Review of Selective Aspects of the Federal Helium Program.” This report
included recommendations relating to the issues discussed in the August 2008
Office of Inspector General (OIG) report entitled “Immediate Action Needed to
Stop the Inappropriate Use of Cooperative Agreements in BLM’s Helium
Program” (Report No. WR-IV-BLM-0003-2008/OI-CO-07-0206-I). The PPA
report found that Bureau of Land Management (BLM) did not use Federal funds
to pay for certain equipment costs for the Helium Program, used standard cost
allocation methodologies in the cooperative agreements, failed to clearly
document or explain certain arrangements with the helium refiners, and did not
delineate or track the use of major maintenance funds. The PPA report also
presented the opinion that the investment fee paid by the BLM was not excessive.
Based on the PPA report and BLM’s planned actions, we made five
recommendations to improve the program.

Our 2008 report found that BLM used cooperative agreements on the Helium
Program when procurement contracts would have been more appropriate. PPA
was not asked to review this issue, and we are not making additional
recommendations on the use of cooperative agreements at this time. We are
instead hopeful that implementation of the planned BLM actions will improve
oversight of the Helium Program.

Major actions required by law will expire in 2015. Currently, there is considerable
interest by legislators, Federal entities, and private producers to review the future
needs for helium and to determine the necessary role BLM may have in the
operations of the Helium Program. Thus, it is all the more critical that BLM make
the necessary changes to the program now in order to improve the transparency
and accountability of the Helium Program for the future. Continuing on the
current course will only perpetuate the opportunities for waste, fraud, and
mismanagement and BLM has the opportunity now to address Helium Program
issues discussed in PPA and OIG reports.




                                                                                   1
Introduction
Objective, Scope, and Methodology
Our objective was to evaluate the Department of the Interior’s Assistant Secretary
for Policy, Management, and Budget, Office of Policy Analysis (PPA) findings
and recommendations regarding the Bureau of Land Management’s (BLM)
Helium Program and the actions planned by BLM in response to our August 2008
report on the program. Although our original intent was to perform a complete
audit of the helium contracting process, in light of the work done by the PPA, we
did not believe a full audit was necessary. Instead, we limited our review to the
above stated objective. We performed our work in accordance with Quality
Standards for Inspections adopted by the Council of the Inspectors General on
Integrity and Efficiency.

Background
The Federal Helium Program was created in 1925 to ensure adequate supplies of
helium to the U.S. Government. BLM took over responsibilities for the Helium
Program when the Bureau of Mines was closed in 1996. In 1996, the Helium
Privatization Act (Act) was created and required BLM to cease federal helium
refining and sell off a stated amount of stored federal helium by 2015. The Act
allows BLM to continue storing and transporting helium and evaluating the
Nation’s helium resources. In carrying out its responsibilities, BLM works closely
with individual helium extractors and refiners as well as a group of refiners
organized as the Cliffside Refiners Limited Partnership (CRLP). BLM entered
into a series of cooperative agreements with CRLP for the construction and
operation of the Crude Helium Enrichment Unit (CHEU) and the Crude Helium
Compression Station (CHCS).

In 2008, a joint review was conducted by the Office of Inspector General’s (OIG)
Office of Audits, Inspections and Evaluations and the Office of Investigations in
response to a hotline complaint. Our report, “Immediate Action Needed to Stop
the Inappropriate Use of Cooperative Agreements in BLM’s Helium Program”
(Report No. WR-IV-BLM-0003-2008/OI-CO-07-0206-I), identified less than
arms-length transactions between managers of the Amarillo Field Office and the
refiners, a lack of oversight by BLM’s New Mexico State Office, overcharging on
the CHEU cooperative agreement, possible double billing for major maintenance,
short-term financing caused by a complex billing process, and the unjustified
allocation of costs to construct and operate the CHEU.

In response to the report, BLM hired a contractor “to provide an independent
review of its Helium Program” and incorporated the contractor’s report in its May
2009 response to our report. Unfortunately, the OIG found that BLM formed a
less-than-arms-length relationship with this contractor, which resulted in the
suspension of this contractor. BLM then asked PPA to conduct an independent

                                                                                 2
review of the Helium Program with a primary focus on the recommendations
contained in the August 2008 OIG report. PPA issued its report in June 2010.




                                                                               3
Findings
Equipment Costs Not Funded with Federal Funds
Our 2008 report questioned why the CHEU was funded by CRLP rather than by
BLM helium operations money. The investment fee that BLM agreed to pay
CRLP more than doubled the cost of the CHEU, and there was more than enough
money in BLM’s helium operations fund to cover the initial cost. The PPA
analysis agreed that there was no documented reason that BLM could not have
provided the initial capital costs for construction of the CHEU and stated that for
future acquisitions, this approach should be considered. PPA concluded that the
CHEU’s primary purpose is for transporting and maintaining the purity of crude
helium, which would fall under Section 4(c)(5) of the Helium Privatization Act.
In other words, the acquisition of this equipment falls within the purview of BLM
mission related work and should be funded and owned accordingly.

 Recommendation

    1. Evaluate whether BLM should provide capital costs for new equipment
       and facilities that fall under Section 4(c)(5) of the Helium Privatization
       Act. Any such equipment should be purchased with program funds in
       the future or adequately justified.


Standard Cost Allocation Methodologies Not Used
Our 2008 report questioned the seemingly unjust allocation of the CHEU costs,
which stated that BLM agreed to pay 80 percent of the CHEU operating costs, but
did not intend to adjust the ratio of costs it would pay during the life of the
CHEU. The PPA report discussed the complex cost sharing arrangements of the
cooperative agreements as well as various methodologies commonly used to
allocate costs. The PPA report concluded that the cooperative agreements did not
appear to use any of the standard methodologies PPA identified. It also confirmed
that the cost allocation of the CHEU has not been revisited since the CHEU
cooperative agreement was signed in 2001. The report clarified that the physical
ratio of gases in the Cliffside reservoir was approximately 20 percent helium and
80 percent other gases in 2001, and that the ownership proportions of the
resources have changed since that time. PPA recommended, and we concur, that
the BLM revisit this issue and consider using other allocation methods that
represent the actual benefits derived from the use of the equipment.




                                                                                    4
 Recommendation

    2. Reexamine the existing cost allocation and evaluate other approaches
       for cost allocation as the end of the term of the CHEU and associated
       agreements approaches. If additional capital investments are to be
       made to maintain the operational integrity of the Cliffside Reservoir,
       pipeline, and other facilities, careful and systematic consideration
       should be given to evaluating cost allocation issues.


Complex Billing Process Lacks Transparency
Our 2008 report discussed the complex billing process in CHCS cooperative
agreement, which allowed CRLP to use Federal funds as a short-term financing
vehicle. The PPA report observed that the analysis done by BLM’s contractor
appears to satisfactorily address this issue, which had stated that short-term
financing was occurring, but was insignificant in value. We do not disagree with
this specific example. The concept of transparent billing practices, however, is
more important than the specific dollars lost and should be carefully reviewed.
Beyond referencing the work done by its contractor, the BLM’s May 2009
response to our report stated that it would “institute a billing methodology that
eliminates the delayed billing for natural gas used in operations.” We agree that
improved transparency is crucial because of the close relationship between BLM
and the Helium Program refiners.


 Recommendation

    3. Ensure that the arrangements with CRLP and refiners are transparent
       and easily explainable, including cost rates and billing processes.


Use of Maintenance Funds Unclear
Our 2008 report discussed the possibility of double billings under the major
maintenance category of the cooperative agreements. In response to our report’s
recommendation to “perform a thorough review of all agreement costs paid to
determine allowability and appropriateness,” BLM hired a contractor to review
the Helium Program and reported that this recommendation was implemented
upon completion of the contractor’s review in November 2008. The contractor did
not, however, thoroughly review the appropriateness of costs charged against the
cooperative agreements. The contractor’s report compared only the operating
budgets and cost allocations against the stipulations of the cooperative
agreements. Further, the contractor’s report cited no commonly accepted
guidelines, principles, or standards such as the “Government Auditing Standards”
promulgated by the Comptroller General of the United States, or auditing
standards promulgated by the American Institute of Certified Public Accountants.
Rather than seriously looking into the matters raised by our report, including

                                                                                    5
determining the allowability and appropriateness of agreement costs, it appears
that BLM hired the contractor to rebut the details of our report.

Although the PPA review did not reveal any clear situations of double billing,
they concluded that BLM is not fully aware of how CRLP manages funds for
major maintenance and that the definition of routine and major maintenance in the
cooperative agreement could be more clearly articulated to enhance transparency.
Beyond citing the work done by its contractor, BLM stated in its May 2009
response that it would “establish and fill a financial management position with an
accountant to assist Field Office officials in financial decisions, review financial
issues and proposals, and counsel the Field Manager on financial matters.”
BLM’s promised action, coupled with the actions recommended by the PPA,
should help assure that the costs paid to CRLP are allowable and appropriate.

 Recommendation

     4. Create clear definitions for routine and major maintenance and clear
        delineation for when funds should be used. Develop a system to track
        major maintenance funds provided to CRLP to ensure that funds are
        being used in a way that is consistent with the cooperative agreements.
        In addition, a thorough review of all costs paid to date should occur to
        verify that all funds have been accounted for and appropriately spent.


Questionable Investment Fee
PPA concluded that the investment fee paid to CRLP for developing the CHEU
was “not excessive” when compared to the 7 percent discount rate discussed in
the Office of Management and Budget (OMB) Circular A-94. PPA’s rationale
was that “the CRLP should be indifferent between receiving the agreed upon
investment fee for 15 years or investing the present value of the stream of
investment fee payments and earning 7.45 percent.” While the OMB Circular lists
this 7 percent rate for financial investments, this transaction is more appropriately
akin to a lease-purchase arrangement governed by Treasury rates, which
historically have been much lower than investment rates. While private industry
may make decisions based on pure monetary basis, the government has a fiscal
responsibility to be conservative in its approach to expenditures. Thus, we do not
believe the manner in which the profit fee was calculated was appropriate for this
situation.

Regardless, the calculation of what is “acceptable” interest assumes that a profit is
in accordance with cost regulations. This is not the case. Profit is a normal part of
contracts, but the purpose of contracts is to conduct business which assumes the
inclusion of profit. As cooperative agreements are designed to benefit the public,
and not be used to fulfill mission requirements, the concept of profit is
inconsistent with the use of these agreements.


                                                                                    6
BLM stated in its May 2009 response that cooperative agreements were used so
CRLP would assume the risks and potential liability associated with designing
and implementing the facilities. The PPA report, however, stated that “BLM
assumed all risk of loss or damage to the CHEU during the term of the agreement.
Thus, it appears that the level of risk accepted by CRLP for the construction of the
CHEU and for bringing the equipment up to operational capacity was relatively
low, and it was not clear if the expected cost of the risks that might have been
assumed by BLM were ever estimated.” We agree that the payment of these costs
has not been justified. We understand the position of PPA, but we continue to
disagree with paying the private refiners a profit under these agreements.

 Recommendation

    5. Reexamine the reasonableness of the CHEU investment fee, given the
       expected risk and liability assumed by CRLP, and the appropriate
       guidance provided by OMB Circular A-94. All excessive payments
       should be reevaluated and suspended. Any future agreements created
       for the continuance of mission-related work should not include a profit
       measure.


Questionable Use of Cooperative Agreements
Our 2008 report discussed the improper use of cooperative agreements to
construct and operate new helium facilities. The use of cooperative agreements is
not unique to BLM; we also reported in 2007 that the Department of the Interior
has relied on cooperative agreements in situations where procurement contracts
would have been more appropriate. BLM did not ask PPA to review whether the
use of cooperative agreements for the Helium Program was appropriate. In its
May 2009 response to our report, the BLM referred to a Solicitor’s Office legal
analysis which “reveals that there is no basis to conclude that the relevant
statutory or regulatory authorities require use of contracts.” While we continue to
be concerned with the use of cooperative agreements as streamlined contracts, our
overarching concern is safeguarding against fraud, waste, and mismanagement. In
its May 2009 response to our report, BLM said it would:

   •   Provide written documentation to the BLM Director identifying specific
       actions taken to increase and strengthen the management oversight of the
       Helium Program.
   •   Establish a technical program lead within the New Mexico State Office to
       provide budget and policy oversight for the helium operation in the
       Amarillo Field Office.
   •   Strengthen BLM’s Acquisition Management Review process by requiring
       reviewers to conduct adequate research, document the basis for their
       findings, and thoroughly explain in writing what is incorrect, why it is
       incorrect, and what the appropriate action should have been.


                                                                                  7
The first two actions were planned to “eliminate the perception of inadequate
oversight” on the part of the BLM’s New Mexico State Office and Division of
Fluid Minerals. The third action was planned because an Acquisition
Management Review stated that “the undersigned remains unconvinced” that the
use of cooperative agreements was appropriate in these cases. While BLM did
not, in our view, seriously consider our concerns with the use of the cooperative
agreements, the planned actions should improve oversight of the Helium Program,
have a positive effect on program accountability, and reduce the chance that
similar problems will occur in the future.




                                                                               8
Conclusion and Recommendations
Because we continue to be concerned about the risk of fraud, waste, and
mismanagement, we are making recommendations below based on the PPA’s
report and our previous work. Implementation of these recommendations should
improve transparency and accountability in the Helium Program.

Recommendations
We recommend that BLM:

       1. Evaluate whether BLM should provide capital costs for new
          equipment and facilities that fall under Section 4(c)(5) of the Helium
          Privatization Act. Any such equipment should be purchased with
          program funds in the future or adequately justified.

       2. Reexamine the existing cost allocation and evaluate other approaches
          for cost allocation as the end of the term of the CHEU and associated
          agreements approaches. If additional capital investments are to be
          made to maintain the operational integrity of the Cliffside Reservoir,
          pipeline, and other facilities, careful and systematic consideration
          should be given to evaluating cost allocation issues.

       3. Ensure that the arrangements with CRLP and refiners are transparent
          and easily explainable, including cost rates and billing processes.

       4. Create clear definitions for routine and major maintenance and clear
          delineation for when funds should be used. Develop a system to track
          major maintenance funds provided to CRLP to ensure that funds are
          being used in a way that is consistent with the cooperative agreements.
          In addition, a thorough review of all costs paid to date should occur to
          verify that all funds to date have been accounted for and appropriately
          spent.

       5. Reexamine the reasonableness of the CHEU investment fee, given the
          expected risk and liability assumed by CRLP, and the appropriate
          guidance provided by OMB Circular A-94. All excessive payments
          should be reevaluated and suspended. Any future agreements created
          for the continuance of mission-related work should not include a profit
          measure.




                                                                                   9
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
